f ».

'gO °6410
IN THE
SUPREME COURT OF THE UNITED1ST

f5»ni¥w.

F areed- Sepehry-F ard----PETITIONER D

USL

V.

California Supreme Court

RESPONDENT (s)

ON PETITION FOR WRIT OF CERTIORARI TO

California Supreme Court, Case No. S2652I1
After an Unpublished Decision
PETITION FOR WRIT OF CERTIORARI
Fareed-Sepehry-Fard, Sui Juris
C/o 12309 Saratoga Creek Dr.
Saratoga, the State of California, Santa Clara County
(Zip code Exempt DMM 602 sec 1.3(e))
Phone Number (408) 690-4612
Email: Ahuraenergysolarcells@msn

r

FILED
NOV 1 6 2020
SUPRE^iETo'lfRTLnlc;K

Notice to Agent is Notice to Principal and Notice to Principal is
Notice to Agent.
QUESTION PRESENTED
Petitioner demanded that two court administrators and
several BAR attorneys to undergo a complete medical
examination as to their mental competency due to their irrational
repeated behavior.
The basis for this demand was the strong threat to our
Republic's National Security where two individuals who have
vacated office and have not been public servants for several
years for failure to post bond in county recorder conducted clear
collusion with several BAR attorneys who based on proof
positive on records do not have and never ever had any power of
attorney from neither the alleged Plaintiff nor from US Bank to
systemically commit acts of piracy, grand theft and deprivation
of Petitioner's inalienable rights under the color of the law.
In spite of these facts presented to the two ex court
administrators--that there is no Plaintiff in court, based on proof
positive on records, the two ex court administrators have

-1 -

continued to terrorize Petitioner based on what seems to be their
mental incompetency.
Moreover, both California Sixth District Court of Appeal
and the California Supreme court expressly set aside these facts,
as if they did not exist, creating another layer of prima facie
evidence of collusion and conspiracy to continue to aid and abet
laundering monies for pedophiles, drug cartels, MS 13, sex and
human traffickers using ruses such as people's homes as conduits
to conduct these unlawful acts against the Petitioner and other
People of this Republic.
The question presented is:
1)

whether this court should continue to allow lower

courts to be used by international drug cartels, pedophiles, sex
and human traffickers and MS 13 gangsters to use people's homes .
as conduits and ruses to launder unlawfully obtained monies
when the attorneys do not have any power of attorney from
neither the alleged Plaintiff nor from US Bank and there is
absolutely no relationship between the homeowner and the
alleged claimant?.

-2-

2)

Should this court end the lower courts' aiding and

abetting laundering monies for inter alia sex and human
traffickers, pedophiles, MSB and drug cartels committed and
perfected by mentally incompetent ex court administrators and
their culprits, as they are national security risks to our Republic
or continue to take part in these activities by ignoring these facts
and avoiding to take a decision in having the two ex court
administrators and the attorneys to undergo a complete medical
examination as to their mental competency and the subsequent
derivative actions to guard against any and all encroachments to
our National Security?
LIST OF PARTIES
All parties appear in the caption page of the case on the
cover page.

-3 -

TABLE OF CONTENTS
QUESTION PRESENTED

1

OPINIONS BELOW.

4

JURISDICTION

5

CONSTITUTIONAL AND
STATUTORY PROVISIONS INVOLVED

5

STATEMENT OF THE CASE

6

A. What the Petition for Respondents' to Undergo a Complete
Medical Examination as to their Mental Competency Asked the
Both the Sixth District Court of Appeals and the California
Supreme Court United States Court of Appeals to Do?..............
B.
Trial Court Proceedings....................................................

29

C.

The Court of Appeal Affirms

30

D.

Post-opinion proceedings

30

ARGUMENT
A.

21

31

This Court Should Grant Review Since Public is in Great
Risk Due to Respondents' Repeated Misconduct
Endangering Our National Security
..... 31

REASONS FOR GRANTING PETITION

33

CONCLUSION

36

-l-

FILED PAGE
/DATE
3
1 California Supreme Docket (Regi ster of Actions) 11/5/2020
2 Californi a Supreme Court Rejection of Petition 11/04/2020
4
for a Writ of prohibition or mandate for a
complete medical examination of alleged
attorneys for alleged Plaintiff, Sunil Kulkami
and Mary E. Arand
INDEX TO PETITIONER’S TRANSCRIPT

3 VERIFIED PETITION FOR WRIT OF

VOL.
1
1

10/26/202C

5

1

MANDATE OR PROHIBITION AND
DEMAND FOR COMPLETE MEDICAL
EXAMINATION OF ALLEGED ATTORNEYS
FOR ALLEGED PLAINTIFF, SUNIL
KULKARNI, MARY E. ARAND WHO HAVE
FORCED PETITIONER INTO THESE
FRIVOLOUS LAW SUITS AS TO THEIR
MENTAL COMPETENCY; MEMORANDUM
IN SUPPORT THEREOF; DECLARATION
4

6th DCA Docket (Register of Actions)

10/19/2020

48

1

5

VERIFIED RESPONSE TO THE CLERK’S
LETTER DATE OCTOBER 26-2020 RE:
THE SO CALLED "VEXATIOUS
LITIGANT ORDER"; MEMORANDUM
OF LAW: DECLARATION

10/26/2020

49

1

6 VERIFIED PETITION FOR WRIT OF MANDATE OR ^21/2020

144

1

PROHIBITION AND DEMAND FOR COMPLETE
MEDICAL EXAMINATION OF ALLEGED
ATTORNEYS FOR ALLEGED PLAINTIFF, SUNIL
KULKARNI, MARY E. ARAND AND ANY OTHER
COURT ADMINISTRATOR WHO FORCES
PETITIONER INTO THIS FRIVOLOUS LAW SUIT
AS TO THEIR MENTAL COMPETENCY; ORDER
FOR DISMISSAL OF THESE FRIVOLOUS LAW
SUITS; MEMORANDUM OF LAW IN SUPPORT

7

6th DCA Rejection of Petition for a Writ of prohibition 10/16/2020
or mandate for a complete medical examination of
alleged attorneys for alleged Plaintiff, Sunil Kulkarni
and Mary E. Arand____________________________

460

1

2

TABLE OF AUTHORITIES
PAGE NUMBER

CASES
California Cases
Keshtgarv. US. Bank, NA., 2104 Cal.App. LEXIS 498
(Cal. Ct. App. 2nd Dist.Div. Six June 9, 2014).............

Passim

Sepehry-Fard v. Aurora Bank CA6 (2016)

Passim

Yvanova v. New Century Mortgage Corp.,
226 Cal:App.4th 495 (2014)......................

Passim

Tenderloin Housing Clinic vs. Sparks (1992) 8 Cal. App.4th 29

Passim

Abandonato v. Coldren (1995) 41 Cal.App. 4th 264.

Passim

Federal Cases
U.S. v. Tweel, 550 F. 2d.297

Passim

Taylor v. United States, 113 Fed. Cl. 171,173 (2013)

Passim

Bulloch v. United States, 763 F.2d 1115 (1985)

19

Rodriques v. Ray Donavan (U.S. Department of Labor)
769 F. 2d 1344, 1348(1985).........................................

20

Media Technologies Licensing, LLC v. Upper
Deck Co, 334 F.3d 1366, 1370 (Fed. Cir. 2003) (Cal)...

Passim

Sosa v. Fite, 498 F. 2d 114,116, 117 (5th Cir. 1974)

Passim

-IV-

Supreme Court Cases
Schware v. Board ofExaminers, 353 U.S. 238, 239

Passim

Henry Schein, Inc. v. Archer & White Sales, Inc.
17-1272, January 8, 2019..................................

Passim

Bivens v. Six Unknown Named Agents, 403 U.S. 388 (1971)

Passim

Yick Wo v. Hopkins, 118 U.S. 356

20,21,31

Davis v. Passman, 442 U.S. 228 (1979)

Passim

Butz v. Economou, 438 U. S. 478

Passim

Rent-A-Center, West, Inc. v. Jackson, 561 U. S. 63, 67...

Passim

Compton v. State ofAlabama, 214 U.S. 175 (1909).......

Passim

AT&T Technologies, Inc. v. Communications Workers,
475 U. S.643, 649-650...............................................

Passim

STATUES AND RULES
California Statutes
California Commercial Code 3308
California Rules of Court
Rule 8.25 (b) (3)
Statues and Other Authorities

Passim

Title 9, US Code

Passim

Cal. Const., art. VI, §10

Passim

Civil Code of the State of California section 3516

Passim

Fed. R. Civ. P. Rule 12 (h) (3)........................................
Simsv. Ahrens, 271 S.W. 720 (Ark. 1925)............. :.......
Kansas P. R. Co. v. Dunmeyer Supreme Court of Kansas
-v-

Passim

33

Passim
31

Article 1 section 10 of the Constitution.

Passim
12,28

Article III
18 US Code Sections 241 and 242;
42 US Code Sections 1983 and 1985

11

18U.S. Code §2382

18

18 USC § 1512 et seq.

10

Article IV Section 4

17

18 USC §2385

18

Title 28 US Code §454

18

Declaration of Independence...........................................

Passim

Bureau of Land Management, Public Information Office

Passim

Land Patent.

Passim

Treaty of Guadalupe Hidalgo
between the United States and the Republic of Mexico

Passim

Vancouver (City) v. Ward, 2010 SCC 27

Passim

Fed Rule. 201 (e) and FRAP 34

Passim

Civil Code of the State of California section 3516

Passim

Title 28 US Code Section 1653

Passim

-vi-

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI

Petitioner respectfully prays that a writ of certiorari issue
to review the judgment below issued by the California Supreme
Court.
OPINIONS BELOW

The Decision of the highest California Court, California
Supreme Court denying an order for the two ex court
administrators and the attorneys to undergo a complete
medical examination as to their mental competency and
repeated irrational behavior appears at [1 PT 4]1 and is
unpublished.
The Decision of the California Sixth District Court of
Appeal, denying an order for the two ex court
administrators and the attorneys to undergo a complete
medical examination as to their mental competency and
repeated irrational behavior appears at [1 PT 460] and is
unpublished.

PT stands for Petitioner's Transcripts concurrently filed, [1 PT
49-54] means volume 1 of Petitioner's Transcripts pages 49 to
54 inclusive, etc. etc
-4-

JURISDICTION
The date on which the California Supreme Court decided
Petitioner's case was on November 4th, 2020. A copy of
that decision appears at [1 PT 4],
The jurisdiction of this court is invoked under 28 U.S.C
§ 1257(a) and 5th amendment right to due process.
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
Petitioner was unable to obtain an impartial
arbitrator and an impartial forum, without bias, pursuant to the
4th, 5th, 6th, 7th, and 14th Amendment guaranteed rights of the
federal Constitution of 1787, as purviewed by the states for
Complainant, Petitioner and Appellant Fareed -Sepehry-Fard.
Petitioner has been wronged by the void order of the
lower court in refusing to require the two ex court administrators
and attorneys to undergo a complete medical examination as to
, their mental competency in spite of their repeated irrational and
unlawful behavior, and as an American has been wronged
economically, emotionally and physically, and is due remedy.
The inferior court refused to perform its administrative
duties in that it refused to ensure that the Public is safe to wit:
-5-

that at least two Public servants and British agents at Severson &
Werson clearly require to undergo a complete medical
examination as to their mental competency, without which
people seem to be at extreme harms way by these servants and
quasi servants.

STATEMENT OF THE CASE
Petitioner, Plaintiff and Appellant Fareed-Sepehry-Fard,
Sui Juris, (or "Petitioner") appealed a decision by the California
Sixth District Court of appeals in refusing to require two court
administrators Miss Mary Arand, Mister Sunil Kulkami and
British agents Bernard J. Komberg, Adam N. Barasch, Jan T.
Chilton and their co parties to undergo a complete medical
examination as to their mental competency, to wit, in that in spite
of, inter alia, proof positive on records that the British agents,
Id., neither have nor ever had any power of attorney from the
alleged Plaintiff in Case Number 17cv314286 which is the
nexus to 17CH007672 in Santa Clara Superior Court nor from
the US Bank, by US Bank's own admission, publically advertised
on US Bank's website, they have continued to, for close to 10
-6-

years, to extort monies, intimidate, demonize, harass, stalk and
even threaten Petitioner severely damaging Petitioner
economically, physically and emotionally, aided and abetted by
Mister Kulkami and Miss Arand. These individuals appear to be
in need medical treatment and that is why they need be
completely medically tested, to wit: "all: elections, “news.”
medical studies, court cases and polls are “legal fiction” derived
of controlled subjects and environments", [1 PT 243], And
furthermore, Petitioner "...demands in obtaining MRI brain
imaging of predatory hominids to evaluate the attorneys at
Severson claiming they represent the alleged Plaintiff in Case
.<

Number 17cv314286, Sunil R. Kulkami and any other judge who
would want to adjudicate the case number 17cv314286: the skull
cap for plates, possible scarring in the hippocampus from
tunneling of parasites from consumption of flesh or feces or by
physical injury and shattering of orbital socket through battery;
possible calcification of the pineal gland due to ingestion of
neurotoxins/biotoxins such as fluoride; scan for heavy metal
sediments that could control mood/behaviors in electromagnetic
fields that are ingested as “preservatives” in mass produced
-7-

“food” products the FDA approves and Monsanto controls, and
for evaluation and differences in the amygdala which controls
emotions such as: fear, shame, guilt, compassion and would
regulate a sense of right or wrong. Fareed has a RIGHT to a
SAFE environment to care for himself and the case number
17cv314286 to be participated by balanced attorneys and
adjudicated by balanced judges-without the complete medical
examination of the judge assigned to adjudicate this case, Sunil
R. Kulkami and any other judge assigned or to be assigned to
this case, based on their irrational repeated behavior and
attorneys at Severson and Werson, Fareed's due process rights at
5th amendment will be utterly violated and it has been seen from
the beginning of the case number 17cv314286, yet these
conspiring men keep organizing the same scenario.", [1 PT 241],
These very sick individuals, who are actively, even as of
now, involved in sex trafficking, human trafficking, prostitution,
drug cartel and other unlawfully obtained monies, have
attempted to cover up their unlawful conduct to launder those
unlawfully obtained monies to what seems to be, inter alia,
funding terrorist groups including but not limited to funding
-8-

ISIS, using Petitioner's (and other people's homes) as a cover up
to launder those unlawfully obtained monies when not only
Petitioner has never had and had never had any relationships
with these entities that the alleged Plaintiff in case number
17cv314286 complained about, at any time, but also based on
extensive research, backed up by a declaration of an expert
witness, based on facts on records, Petitioner found out that not
only Greenpoint Mortgage Funding, Inc. did not exist in 2007 in
California since it had surrendered to California Secretary of
State in 2004, but also there were never, at any time, any
financial transactions between Petitioner and any and all of the
companies who have or had made claims against Petitioner and
Petitioner's real property, also based on facts on records, backed
up by the Declaration of Custodian of Records at First American
Title insurance Company ("FATIC"), in 2004, 2007, 2009 and
2011.

As a direct and proximate result of Respondents and their
Agent(s) Co Parties Principle(s) failure to prevent harm to
Petitioner at inter alia, 28 US Code §1346, Petitioner has been
economically, emotionally and physically harmed by the all
-9-

Respondents' failure to act and they must undergo a complete
medical examination as to their mental competency.
The allegations above inclusive have evidentiary support
under open public records and are likely to reach proof of fact
qualifying as Mandatory Judicial Notice under Federal Rule of
Evidence 201 and controlling of presumptions under Rule 301 of
Evidence Rules.
Any objections to said standings and capacities will be
noticed to Plaintiff forthwith so Petitioner can respond. And,
that without such notice and objection, Petitioner's capacities and
standings are fully recognized nunc pro tunc.
Thereby, Petitioner require protection by federal actions
enforcing the laws as written while reporting wrongs of both the
state and the federal constitutions and laws and rules to this
Court as Petitioner is now witness in this federal action (18 USC
§1512 et. seq.).
Additionally, based on proof positive on records, the
attorneys who claimed and still claim that they were and are
representing the ghost (US Bank US BANK NATIONAL
ASSOCIATION, as Trustee for Greenpoint Mortgage Pass
-10-

Through Certificates, Series 2007-AR2 - the alleged Plaintiff in
Case Number 17cv314286 which is the nexus to 17CH007672)
do not have and never had any power of attorney from neither
the ghost nor from US Bank by US Bank's own admission,
publically available on US Bank's own website, [1 PT 298-301],
In spite of these facts and repeated notices to all
Respondents, both Mister Kulkami and Miss Arand did nothing
and in fact encouraged British agents to further harm Petitioner,
which are Petitioner's deprivation of rights under the color of law
actionable at 18 US Code Sections 241 and 242 and Title 42 US
Code Sections 1983 and 1985, and therefore they be must
medically tested.
The court of appeal did nothing to prevent further harm to
Petitioner, Sepehry-Fardv. U.S. BANK NATIONAL
ASSOCIATION, AS TRUSTEE FOR GREENPOINT
MORTGAGE TRUST MORTGAGE PASS-THROUGH
CERTIFICATES, SERIES2007-AR2 eta!., H048388, Santa
Clara County Super. Ct. Nos. CV314286, CH007672 without any
opinion at [1 PT 460],

-11 -

The California Supreme Court also denied to furnish relief
to Petitioner as an American who has been wronged, without any
opinion at [1 PT 4],
Petitioner explained at [1 PT 226], California state
establishments falsely labeled as courts, are in fact and in law
private tribunals which have unknown Employer Identification
Number ("EIN"), and have invested in bogus Asset Backed
Securities ("ABS") and Mortgage Backed Securities ("MBS")
that are not backed by anything. Those are not backed by
anything since the false instruments, whether filed in Santa Clara
County recorder or not, recite transactions that never ever
happened in fact and in law to wit: for any financial transaction
to get consummated, there must have been an offer, when there
were none; acceptance of that offer, where there were none; and
last but not least, for value consideration or payment, when there
were never ever any, whatsoever, see Uniform Commercial Code
("UCC"). Moreover, these so called state courts are also not
ordained and established by congress at Article III Section I of
the Constitution, therefore, they too have no judicial power, Id.

- 12-

As clearly corroborated in Petitioner's papers, the false and
fabricated paper trails, whether or not filed in Santa Clara
County recorder and or securities and exchange commission et.
al., are holographic images of empty bags with nothing in diem,
facilitated, organized and managed at the highest levels of
government with most if not all USDC, state, bankruptcy and
even appellate court judges' direct and or indirect involvement in
laundering monies for sex and human traffickers and pedophiles,
laundering 1000s of trillions of dollars through variety of ruses to
wit: Collaterized Debt Obligations ("CDOs"), Credit Default
Swaps ("CDSs"), Yield Spread Premiums, TARP, and all other
insurance payouts, literally bankrupting every single man,
women and child in the entire world as there is less than S200T
of money supply2 in the entire planet.
From time to time, very few "judges" in the entire country,
based on ignorance or simply because they can not be bought or
both, allow discovery, Id., and then, the homeowner, at the 11th
hour, is offered a settlement from the racketeers or pretender

2 Source: https://www.marketwatch.com/story/this-is-how-muchmoney-exists-in-the-entire-world-in-one-chart-2015-12-18
- 13 -

lenders that he or she can not refuse, BUT, the criminal racket
continues against other homeowners while the Respondents are
instrumental in making sure these criminal rackets in piracy and
grand theft of People's assets continues.
Our President, Mr. Trump has been working hard to drain
the swamp and Restore the Republic with numerous patriots
helping him, Petitioner included.
https://nationalfile.com/watch-attomev-general-barr-takeson-human-trafficking-in-child-welfare-svstem/

“In the

modern age, the level of evil is unbelievable,” said President
Trump, who has dramatically increased human trafficking
arrests.
As the justices of this court of records may be aware,
Petitioner explained in lower courts at [1 PT 180], every case
whether criminal or civil or even probate, is assigned a CUSIP3

3 CUSIP refers to the Committee on Uniform Securities
Identification Procedures which oversees the entire CUSIP
system. The CUSIP number is a unique identification number
assigned to all stocks and registered bonds in the United
States and Canada, and it is used to create a concrete distinction
between securities that are traded on public markets. Foreign
securities have a similar number called the CINS number.
Source: https://www.investopedia.eom/terms/c/cusipnumber.asp
-14-

number and traded on wall street among various deep state
operatives who launder monies obtained from various unlawful
activities including but not limited to kidnapping over 800,000
children on an annual basis in this country alone, and selling
their organs and committing all kinds of other heinous crimes on
those children4 using various other conduits and ruses inter alia :

4 The individuals subject to issued arrest warrants who are inter
alia, attorneys at Severson & Werson [Guzzetta ("Guzz"),
Aspinwall, Komberg, Barasch and others] and their culprits
routinely use defunct and closed entities such as but not limited
to U.S. BANK NATIONAL ASSOCIATION, AS TRUSTEE
FOR GREENPOINT MORTGAGE TRUST MORTGAGE
PASS-THROUGH CERTIFICATES, SERIES 2007-AR2,
without any power of attorney on records and when specifically
demanded of them, through well in excess of 12 Writs, failed to
return the Writs, and are involved in laundering illegally
obtained monies from inter alia, pedophile rings, human
trafficking, sex trafficking, drug cartels and other illegally
obtained monies. These individuals use part of these illegally
obtained monies, to bribe corrupt state and federal court judges,
to aid and abet diem and their culprits such as Nationstar
Mortgage LLC. ("Nationstar") to accomplish laundering monies
using conduits and guises such as, the homeowner, the home and
the alleged so called "loan". That is why diey continue to
represent closed and defunct entities tiiat, in my case, has shut
down operations in excess of 11 years. This is precisely what
other criminals like these individuals and their culprits did
during wars in the south east Asia, see and hear the
statements made by the ex head of FBI in Los Angeles where
illegal drugs were imported into this country using the body
cavities of dead GIs. Theodore L. Gunderson ("Gunderson")
was an American Federal Bureau of Investigation Special Agent
-15-

Credit Default Swaps (CDSs), Collateralized Debt Obligation
(CDOs), Yield Spread Premiums, and other ruses such as but not
in charge and head of the Los Angeles FBI. According to his son,
he worked the case of Marilyn Monroe and the John F. Kennedy
cases (see Retired HEAD OF FBI Ted Gunderson Tells ALL
Illuminati Satanism Pedophile Rings
https://www.youtube.com/watch?v=9YLpvKAR5fA&feature=e
mb title . According to FBI and Gunderson, every hour, 83
children are missing from this county, over 700,000 children
per year, also see another confirmation of this fact, which is
obtained from ABS news, "According to the National Center
for Missing and Exploited Children, roughly 800,000 children
are reported missing each year in the United States — that 's
roughly 2,000per day.", Source:
https://abcnews.go.com/US/missing-children-americaunsolvedcases/story ?id=19126967
The justices and the Clerk of this court of records are
demanded to listen, in full, to the statements made by
Gunderson and do an independent inquiry, using alternative
media and not the FAKE NEWS, to determine what these
criminals and their culprits such as the individuals subject to
the arrest warrants, Id, do to the missing 800,000 missing
children, on an annual basis, most of whom are NEVER
FOUND.
Therefore, the individuals subject to the arrest warrants, Id., (the
British agents working at Severson) that state court and USDC
administrators routinely shelter and shield, and fail their official
duty to perform, authorized by law, Id., are using corrupt judges
and courts, by bribing these corrupt so called judges, by some of
the monies that these individuals subject to the arrest warrants,
Id., and their culprits obtained and obtain from, inter alia,
pedophile rings, to launder illegally obtained monies from
Satanic acts, inter alia, committed on nearly 800,000 children, on
an annual basis, that go missing in our country using closed,
DEAD and defunct entities, Id, (just like other criminals used
dead GIs' body cavities to import heroin and other illegal drugs
to our country), SEE THE PARALLEL HERE!!
- 16-

limited to obtaining federal and state grants which are obtained
and distributed among members of these racketeering club
members.
Respondents are obligated to guarantee a Republican form
of government to Petitioner, to wit: Article IV Section 4 which
consists of one (1) clause: (1) Provided that the Federal
Government shall GUARANTEE a Republican form of
government to all States; providing courts ofjustice under the
Law of the Land, a/k/a Common Law and that is what Appellant
demanded.
Respondents, due to what seems to be their mental
incompetency, repeatedly failed their obligations, Id. to
Petitioner at inter alia Article IV Section 4 while Respondents
have been instrumental in literally stealing 10s of millions of
dollars of Petitioner's monies.
Petitioner has been harmed by the Respondents and
demands this court to order Respondents and their co parties to
not only return Petitioner's stolen monies by the Respondents and
their culprits, Id. but also pay for Petitioner's damages caused as
the direct and proximate results of Respondents' misconduct as
-17-

folly memorialized in Petitioner's instruments presented to this
court of records, see UCC - Presentment.
Moreover, the Respondents, Petitioner explained to the
inferior courts at [1 PT 182], have been attempting to destroy and
abolish our Republican form of government in violation of the
law and in the process further economically damaged Petitioner,
Id., to wit: Pursuant to 18 USC §2385 - Whoever organizes or
helps or attempts to organize any society. group. or assembly of
persons who teach, advocate. or encourage the overthrow or
destruction of the Republic a/k/a Law of the Land by force or
violence: Shall be fined under this title or imprisoned not more
than twenty years, or both. Also see 18 U.S. Code § 2382 Misprision of treason." Whoever, owing allegiance to the United
States and having knowledge of the commission ofany treason
against them, conceals and does not, as soon as may be, disclose
and make known the same to the President or to some judge of
the United States, or to the governor or to some judge orjustice
of a particular State, is guilty of misprision of treason and shall
be fined under this title or imprisoned not more than seven years,
or both." and pursuant to Title 28 US Code §454 - Practice of
-18-

law by justices and judges- Any justice orjudge appointed
under the authority of the United States who engages in the
practice of law is guilty ofa high misdemeanor.
These and other takings of Petitioner's monies and
properties by the Respondents and their culprits, have severely
economically damaged Petitioner, Petitioner is due remedy as an
American who has been wronged by the Respondents.
Respondents, based on numerous controlling case laws,
admitted to treason, at inter alia, Bulloch v. United States, 763
F.2d 1115 (1985) where the court stated "Fraud upon the court is
fraud which is directed to the judicial machinery itself and is not
fraud between the parties or fraudulent documents, false
statements or perjury....It is where the court or a member is
corrupted or influenced or influence is attempted or where die
judge has not performed his judicial function, thus where the
impartial functions of the court have been directly corrupted."
further damaging Petitioner economically, physically and
emotionally.
Finally, Respondents have, in addition, stolen 10s of
millions of dollars of Petitioner's monies from Petitioner's trust
-19-

FAREED SEPEHRY-FARD®, Petitioner demands all of it back
and the court is obligated to order the Respondents to pay back
the monies in Petitioner's trust which does not belong to
Respondents, it belongs to Petitioner.
Petitioner explained to the clerk of the inferior court, that
all laws repugnant to the constitution are null and void, Marbury
v. Madison [1 PT 37]; that Petitioner never consents nor
consented to a Nisi Prius Court [1 PT 33], [1 PT 53]; that all
codes, rules, and regulations are unconstitutional and lacking due
process, Rodriques v. Ray Donavan (U.S. Department of Labor)
769 F. 2d 1344, 1348 (1985), [1 PT37]; that all codes, rules, and
regulations are for government authorities only, [not Petitioner]
in accordance with God's laws, Rodriques v. Ray Donavan, Id.;
that pursuant to California Government Code 54950,"... The
people of this State do not yield their sovereignty to the agencies
which serve them. The people, in delegating authority, do not
give their public servants the right to decide what is good for the
people to know and what is not".
In spite of all these authorities and others, inter alia, Tick
Wo v. Hopkins, 118 U.S.356.A sovereign is the source of law.
-20-

"Sovereignty itself is, of course, not subject to law, for it is the
author and source of law", Yick Wo v. Hopkins, 118 U.S. 356, [1
PT 219], [1 PT 224], the inferior court administrator still failed
its official duties to furnish long overdue remedy to Petitioner,
failed to abide by their oath of office, and in the process further
harmed Petitioner economically, physically and emotionally.
This summary of facts is based on sworn statements of
Petitioner made in the Petition for a writ of mandate or
prohibition.

A.

What the Petition for Respondents' to Undergo a
Complete Medical Examination as to their
Mental Competency Asked the Both the Sixth
District Court of Appeals and the California
Supreme Court United States Court of Appeals
to Do?

Petitioner asked both California Sixth District Court of
Appeals and the California Supreme Court, through issuance of a
writ of prohibition or mandate, to require Mister Sunil Kulkami,
Miss Arand and the British agents BJ Komberg, "Komberg", Jan
T. Chilton, "Chilton", Adam N. Barasch, "Barasch" to undergo a
complete medical examination as to their mental competency, [1
PT 5],
-21 -

Petitioner corroboratively presented to the lower courts
that there are very strong evidence that Kulkami, Arand, the
British agents BJ Komberg, Chilton, Barasch and their co parties
have been suffering and are suffering from numerous diseases
which appear to clearly explain their irrational behavior, to wit,
inter alia, in spite of proof positive on records that the British
agents never ever had nor have any power of attorney from
neither the ghost [the alleged Plaintiff in case number
17cv314286 which is the nexus to case number 17CH007672]
nor from US Bank, by the admission of US Bank based on
publically available information on US Bank's own website and
the subsequent torture, extortion, intimidation, harassment,
stalking and demonizing Petitioner by the British agents-BJ
Komberg, Chilton and Barasch aided and abetted by Arand and
Kulkami which has damaged and continue to damage Petitioner
economically, physically and emotionally, [1 PT 298-which
clearly proves the above facts by US Bank's own admission, inter
alia, to wit: US Bank: Does not initiate, nor has any discretion
or authority in the foreclosure process. Does not have
responsibility for overseeing mortgage servicers. Does not
- 22 -

mediate between the servi certs) and investors in
securitization deals. Does not manage or maintain properties
in foreclosure. Is not responsible for the approval of any loan
modifications!
Petitioner corroboratively presented to the lower courts
that inter alia, these repeated irrational behavior, orchestrated by
inter alia, the British agents Komberg, Barasch and Chilton
aided, abetted, facilitated by Mister Kulkanri, Miss Arand and
their Co Parties, which has lasted for close to 10, seems to be
based on facts that they have been sodomized, tortured and
traumatized based on extensive clinical research, inter alia,
supported by a report at the University of Minnesota among
others, [1 PT 7-8], yet Respondents still attempt to protect their
abuser(s) since they are suffering from what seems to be inter
alia, Stockholm syndrome, [1 PT 7-8],
Depending on the outcome of the complete medical
examination on Kulkami, Arand and the British agents
Komberg, Barasch and Chilton, Petitioner corroborated to lower
courts, there appears to be three possibilities, to wit: 1) their
shipment to the Guantanamo Bay detention camp- a United
-23 -

States military prison for their crimes committed against the
humanity; 2) tried for treason; and 3) small possibility of
treatment based on what appears to be sever damage based on,
inter alia, [1 PCT 8]:
• intraspecies, sub-clinical psychopaths, who
willingly bully for the Good Ole Boys, are
intentionally kept mentally ill and
undiagnosed/untreated and used for collecting
information, reporting to/taking suggestions of the
conspiring intraspecies,
• sub-clinical psychopath working with each other
with intent to libel and silence and slowly poison
them to death aka “soft kill” - often committing
fraud, malpractice and murder by
battering/neglecting trauma victims, over
medicating to the point it appears to be or is labeled
as: “Alzheimer’s”, “Parkinson’s”, “Dementia”,
“Delusional”,“Bi-Polar” or “Schizophrenic” - to
keep them from figuring it out or speaking truth
about what the intraspecies Good Ole Boys are
really doing and what’s wrong with them.
• that the mixed breed inbred/interbred mixed breed
“intraspecies” Nephilim, which appear to be
Komberg, Barasch, Chilton, Arand and Kulkami,
based on their repeated irrational behavior, are a
distinct and different species of hominid than
humans, and to date, there has been 7 or more
varied species known to have existed on the planet
earth.
• inbred/interbred mixed breed “intraspecies”
Nephilim and damaged vessels such as what appears
to be Komberg, Barasch, Chilton, Arand and
Kulkami cannot feel human emotions due to genetic
differences or mutations in the brain (it is believed
the differences/damages will be found in the
-24-

prefrontal cortex specifically in the amygdala,
hippocampus, and pineal gland).
• inbred/interbred mixed breed “intraspecies”
Nephilim and damaged vessels which appears to be
Komberg, Barasch, Chilton, Arand and Kulkami are
prone to religious “extremism” and
“fundamentalism.”
• we still contend with the results of the lurking
inbred/interbred mixed breed “intraspecies”
Nephilim: raping, and keeping hostages, and slaves
and eating the “forbidden fruits” which are clearly:
human flesh, feces, blood and urine and spend
trillions of tax payer dollars covering these and
other scientific facts at the expense of billions of
sacrificed souls, economic wastes and relative
pollution.
• that calcification of the pineal gland through
administration and use of synthetic opiates,
neurotoxins, statins, psychotropics blocks the
spiritual connections and communications to loved
ones and the spirit body which seems to explain
Komberg, Barasch, Chilton, Arand and Kulkami
irrational repeated behavior, Id.
• Nephilim which appears to be Komberg, Barasch,
Chilton, Arand and Kulkami cannot form oxytocin
bonds with offspring.
• Nephilim which appears to be Komberg, Barasch,
Chilton, Arand and Kulkami being sterile due to
mixed breeding designed Child Protection Services
("CPS") to steal and prostitute/rape children for
more children, they claim are their own. Those
children are then interbred and married with intent
through planned epidemiology “research” and
abducting or forcing marriage to healthy females
(who are not bloodline) to use as slaves and
“breeders.”, [1 PCT 8-10],
The effects of inter alia, Kulkami's, Arand’s, Komberg’s,
Barasch’s and Chilton's sodomization, trauma and torture, they
-25-

seemed to have undergone, and their bondage to protect those
responsible for these heinous acts against them appears to be
prima facie evidence of their suffering from Stockholm
syndrome--to wit: in spite of the facts that there are proof
positive on records that neither the ghost in case number
17cv314286 (and the subsequent nexus to it: Case Number:
17CH007672) nor US Bank ever furnished any power of
attorney to Komberg, Barasch, Chilton and Severson; Arand,
Kulkami and the British agents have been protecting their
abuser, since they appear to be suffering from Stockholm
syndrome to wit: their belief in the humanity of the captor
because they cease to perceive the captor as a threat when the
victims [Kulkami, Arand, Barasch, Chilton and Komberg] hold
the same values as the aggressor(s) who seems to have
repeatedly sodomized them, traumatized them, torture them and
raped them.
Additionally, based on their irrational behavior, it appears
that Kulkami, Arand, and British agents Barasch, Komberg and
Chilton have been Medically Neglected, Undiagnosed,
Untreated, Suspected Self-Medicating & Incompetent,
-26-

Temporally Dead, Dangerous, Predatory Mental Subjects - most
likely suffering any combination of the following (commonly
comorbid) conditions: Malignant Narcissistic Personality
Disorder; Stockholm Syndrome; Muchaussen Syndrome By
Proxy; Parasitic Psychosis; Obsessive Compulsive Disorder;
Dissociative Identity Disorder; Cognitive Dissonance; Substance
Abuse Disorder (including toxic drugged processed foodstuffs)
or other co-morbid conditions due to Childhood Ritual Abuse
Programming/Grooming in need of Cts, fMRI's
(hippocampus/prefrontal cortex/amygdala), Pineal Gland, DNA,
BLOOD, URINE & FULL TOXICOLOGY Testing, [1 PT 11].
Regardless of the three possibilities, Id., Kulkami, Arand
and the British agents Barasch, Chilton and Komberg are danger
to our Republic and must be immediately and without any further
delay restrained as they are danger to the community.
Based on the above, Petitioner, on or about September 2nd,
2020, in Sixth District Court of Appeal, filed his petition for Writ
of Mandate or Prohibition and Demand for a Complete Medical
Examination of British agents Komberg, Barasch, Chilton,

-27-

Mister Kulkami, Miss Arand and their culprits as to their mental
competency, [1 PT 12].
Sixth DCA denied that Petition at [1 PT 460],
California Supreme Court also denied that Petition [1 PT
4].

The orders by the inferior court was and is void and of no
force and effect since it also presumes that there is nothing
wrong with Respondents, when the court record clearly
demonstrate and prove the exact opposite.
However and in addition, these so called courts not only
do not have the jurisdiction to act since they have no judicial
power at Article III Section I of the Constitution, but also they
have vested interests in systematically and systemically denying
Petitioner's [and 10s of millions of other men and women of our
Republic] inalienable rights to due process at every turn and
hence since they financially benefit from these cases through the
CUSIP5.

5 the Committee on Uniform Securities Identification Procedures
"CUSIP" Number. Every court case is assigned a CUSIP number
as financial instruments and monetized/traded on wall street as
securities, among the deep state operatives.
-28-

Petitioner stated under oath that the false claimants have
been committing acts of piracy and grand theft of Petitioner's
home, while being aided and abetted by the Respondents, when
there were never ever any relationships of any kind among
Petitioner and any and all the false claimants, whoever they may
be, since the named claimant, to wit: U.S. BANK NATIONAL
ASSOCIATION, AS TRUSTEE FOR GREENPOINT
MORTGAGE TRUST MORTGAGE PASS-THROUGH
CERTIFICATES, SERIES 2007-AR2 ("the ghost") never existed
and does not exist and the attorneys have admitted that they have
no power of attorney neither from the ghost nor from U.S.
BANK NATIONAL ASSOCIATION nor from any damaged
party, party of interest and holder in due course of the alleged
debt, alleged note [which is forged] and alleged mortgage.
Moreover, attorneys admitted oh records that they have no
power of attorney from any damaged party, [1 PT 168], [1 PT
203],

B.

Trial Court Proceedings

Based on enacted law, authorized by "We the People",
non - judicially, Id., Petitioner filed an action in both California
-29-

Supreme Court and the California Sixth District Court of
Appeals.
Petitioner asked both California Sixth District Court of
Appeals and the California Supreme Court, through issuance of a
writ of prohibition or mandate which would require Mister Sunil
Kulkami, Miss Arand and the British agents Komberg, Chilton,
and Barasch to undergo a complete medical examination as to
their mental competency, [1 PT 5],
C.

The Court of Appeal Affirms.
Both California Sixth District Court of Appeals and

the California Supreme Court denied the Petitions, [1 PT 4,
California Supreme Court, date: November 4th, 2020], [1 PT 460,
Sixth DCA, date October 16th, 2020],
D.

Post-opinion proceedings.
There were and are many instruments that have

been filed in the court of records in California Sixth District
Court of Appeals Case Number H047028 which is the nexus to
Case Number H047527 clearly demonstrating, inter alia, prima
facie evidence of respondents' various diseases which require
them to be immediately tested to possibility cure them or in the
-30-

alternative indict and ship them to Guantanamo Bay for their
crimes committed against Petitioner and countless other men and
women of our Republic.
Petitioner explained to the inferior court of records, "The
words, "by due course of law," are synonymous with "due
process of law," or, "the law of the land;" Emphasis added,
Kansas P. R. Co. v. Dunmeyer Supreme Court of Kansas, if law
of the land is not furnished to Petitioner, and the law of the land
has not been furnished to Petitioner, then Petitioner has been
deprived of his 5 th amendment right to due process and takings of
property by the Respondents and Respondents' culprits, [1 PT
33], [1 PT 54], [1 PT 66], Petitioner's authority as a sovereign
trumps any and all color of law and decisions, to wit:
"Sovereignty itself is, of course, not subject to law, for it is the
author and source of law", Yick Wo v. Hopkins, 118 U.S. 356.
ARGUMENT
A.

This Court Should Grant Review Since Public is
in Great Risk Due to Respondents’ Repeated
Misconduct Endangering Our National Security

The facts are that Respondents Kulkami and Arand aided,
abetted and clearly colluded with British agents at Severson &
-31 -

Werson in spite of facts on records that British agents working
for Severson and Werson do not have and never ever had a
power of attorney from neither the ghost--the alleged Plaintiff in
Case Number 17cv314286 which is the nexus to Case Number
17CH007672 nor from US Bank by US Bank's own admission
based on publically available data on US Bank's own website,
Id., [1 PT 298-309],
However, in spite of this and numerous other facts on
records that inter alia, Nationstar and its attorneys at Severson &
Werson are complete strangers to Petitioner, Petitioner's home, to
the alleged mortgage and the alleged loan presented to Kulkami
and Arand, because they and their culprits at Severson seems to
have been raped, sodomized, tortured and traumatized yet
continue to attempt to protect their abusers which is prima facie
evidence of their suffering from Stockholm syndrome among
other diseases that they seem to suffer from, they must be
collectively completely medically tested as this is a matter of
National Security, to wit: their attempts to steal monies and
properties for the pedophiles, sex and human traffickers, MS 13,
drug cartels using ruses such as people's homes and using those
-32-

ruses [homes] to complete laundering monies for pedophiles
among others when the attorneys at Severson & Werson do not
have any authority and never ever had any authority to contact
Petitioner in any form and matter, whatsoever.
This situation is a compelling case for review of a court of
appeal decision to "secure uniformity of decision" particularly
when the courts across our nation has been facilitators of the
crimes of grand theft, extortion, demonization, stalking and other
unlawful acts, errors and omissions severely damaging the
People of our Republic. Without guidance from this court,
People of this Republic will enjoy success or failure depending
on where they bring their actions. Moreover, Consumers have an
interest in avoiding being railroaded by courts across this
Republic.
Any and all briefs and papers filed by the in British agents
in courts below are barred under the doctrine of lack of subjectmatter jurisdiction by operation of Federal Law. There are no
exceptions under the statute, id. Fed. R. Civ. P. Rule 12 (h) (3),
Lack of Subject-Matter Jurisdiction.
REASONS FOR GRANTING PETITION
-33 -

The People of this Republic must be left alone by pirates
such as Nationstar and its attorneys at Severson & Werson when
based on facts on records, there is no power of attorney from
neither the alleged Plaintiff in Case Number 17cv314286 which
is the nexus to 17CH007672 nor from US Bank, Id. to the British
agents at Severson & Werson.
In spite of these facts on records, both Kulkami, Arand
and their culprits have repeatedly aided and abetted British
agents at Severson & Werson to steal monies and properties from
Petitioner which is the cause of action in this Petition.
Clearly Kulkami, Arand and the British agents' repeated
irrational behavior, Id., has been triggered by their diseases, Id.,
otherwise, long ago, these frivolous law suits must have been
dismissed and Petitioner would have been made whole due to
gang stalking of these inbred/interbred mixed breed
“intraspecies” Nephilim and damaged vessels such as what
appears to be Komberg, Barasch, Chilton, Arand and Kulkami
who seem cannot feel human emotions due to genetic differences
or mutations in the brain (it is believed the differences/damages

-34-

will be found in die prefrontal cortex specifically in the
amygdala, hippocampus, and pineal gland), [1 PT 9],
Public is in great risk due to these creatures who seem to
have some major sickness and disease which prevents them
from acting rationally and lawfully, in short they seem to be
incapable of differentiating wrong from right, and that is why
there is absolutely a need for complete medical examination of
them who appear to be the mixed breed hominids, a coup of
diseased and disordered creatures who continue: oppressing,
defaming, raping, framing, eating, robbing, stalking, harassing,
harvesting, and farming the citizens in the United States of
America, who appear to be relatives of Nephilim from the Book
of Enoch and casually classify themselves as “subclinical
psychopaths”. Once again, these are matter of National Security
risks, Respondents must be completely, medically tested.
Because the lower court cases-17cv314286 and
17CH007672, unpublished opinions as well as other courts of
appeal and lower courts have led to disregard established Federal
law and clear unambiguous statute, M, that in any controversy
there must be at least two parties, when there is none, since, inter
-35-

alia, the British agents working at Severson & Werson do not
have and never ever had a power of attorney from neither the
ghost nor from US Bank, Id., and the inferior court
administrators Kulkami, Arand and their Co Parties Agent(s)
Principle(s) aided and abetted British agent(s) to continue to
economically, emotionally and physically harm Petitioner, this
court is invited to correct the previous court administrators clear
errors of law, Id.
CONCLUSION
For these reasons, the petition for writ of certiorari should
be granted.
DATED: 15th day of November, 2020
Respectfully presented,
All rights reserve waive none /
By:

/'flu*'
F areed-Sepehry-F ard

-36-

